ES, IG-99-016, Audit of Advanced X-Ray Astrophysics Facility
AUDIT OF ADVANCED X-RAY
ASTROPHYSICS FACILITY
IG-99-016
Executive Summary
Introduction
The Advanced X-ray Astrophysics Facility(1) (AXAF) is the third of the four
"Great Observatories" intended to observe the universe in four
electromagnetic spectrum regions: visible, infrared, gamma ray, and x-ray.
AXAF is intended to provide unique information based on observations in the
x-ray band, on the nature of objects ranging from nearby stars like our Sun
to quasars at the edge of the observable universe.
The AXAF program is under the purview of the Office of Space Science.
Marshall Space Flight Center (Marshall) has responsibility for managing the
day-to-day operations of the AXAF Program including supervision of design,
development, prelaunch verification, launch, and orbital verification of the
AXAF.  The current development cost of the program is about $1.5 billion.
Originally, the AXAF was to be launched during August 1998.  In
November 1997, the prime contractor informed the AXAF Program Manager that
the contractor was not going to meet the scheduled launch date.
Objectives
The overall objective was to evaluate the management response to the initial
AXAF launch delay, including procurement and contract administration
functions.  Specifically, we determined whether:
NASA oversight is sufficient to ensure that schedule, cost, and
quality control impacts are minimized because of late delivery of the
AXAF.
Contractor performance is adequately monitored and evaluated, and
award fees reflect actual performance.
Details on the scope and methodology are in Appendix A.
Results of Audit
Overall, NASA responded adequately to the initial AXAF launch delay and has
focused additional attention on contractor performance.  The AXAF launch
delay will increase contract costs by an estimated $28.8 million.  The
initial delay was caused by problems in software development and inadequate
time scheduled for integration and test activities for the AXAF flight and
ground software.  When software development was identified as a high risk,
the AXAF Risk Management Plan was not updated because NASA policy did not
require the plan to be updated.  Also, NASA did not assign personnel with
software expertise at the contractor location.  However, when the delivery
delay became known, NASA management took action to minimize the impacts and
adjusted the contractor award fee to reflect actual performance.
Other Matters of Interest
The prime contractor had not been efficiently processing Certificates of
Qualification(2) (COQs), which document hardware certification approval and
problem reports, prior to shipping the AXAF.  The prime contractor had
completed only about 44 percent (30 of 67) of the known COQs and 48 percent
(135 of 279) of the known problem reports as of February 1998.  The AXAF
launch could be further delayed if these reports are not processed before
shipment.  After we brought this issue to management's attention, management
placed greater emphasis on processing COQs and problem reports.  Therefore,
we are making no recommendation on this issue (see Appendix D).
Recommendations
We recommended that management revise the NASA policy to require program
managers to update Risk Management Plans as high-risk issues arise, and
if NASA management designates software development as a significant risk to
a program, management should consider having personnel with software expertise
on-site at the contractor's location.
Management's Response
The NASA Chief Engineer forwarded the recommendations to the Program/Project
Management Working Group to deliberate and revise NASA policy.  The Group
will reconvene in late April 1999 and plans to finalize the modification by
late summer 1999.  If software is identified as a significant management
risk, and as part of the risk management plan developed under NASA policy,
management may consider on-site software expertise at the contractor's
location.
Evaluation of Management's Response
Management's planned actions are responsive to the recommendations.  In
response to management's comments, we revised the recommendation relating to
having personnel with software expertise on site when software-driven
programs are designated a significant management risk because it would not
be necessary or practical in all cases to assign personnel with software
expertise on-site at contractor locations.
FOOTNOTES
1.  NASA renamed AXAF the
Chandra X-ray Observatory, in honor of the late Indian-American Nobel
Laureate Subrahmanyan Chandrasekhar, in December 1998.
2.  The COQ is a form which
lists the configuration of the hardware and the documentation required to
verify that the flight hardware or program critical ground support equipment
is qualified for its intended use.